Supreme Court, U.S.
FILED

MAR 3 1 2020

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-1083

Jeffrey A. Clouser

v.

Kim Doherty, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
I] Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Kim Doherty, Mark Holodick, Patrick Bush, James Scanlon, Brandywine School District, Brandywine School District Board of Education, Debra Heffeman, Olivia Johnson-Harris,

Mark Huxsoll, Patricia Hearn, Cheryl Siskin, Ralph Ackerman, Joseph Brumskill, and Dane Brandenberger

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

3/31/2020

(Type or print) Name

James H. McMackin, Ill
El Mr.

Firm

❑ Ms.

El Mrs.

[I] Miss

Morris James LLP

Address

500 Delaware Avenue, Suite 1500

City & State
Phone

Digitally signed by James H. McMackin, III
Date: 2020.03.30 13:08:02 -04'00'

James H. McMackin, IH

Wilmington, DE

(302) 888-5849

Zip
Email M CM

19801

a ck i n@m orrisja mes. co m

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Dr. Irwin Lance Lifrak, Esquire via USPS - George Lees-George.Lees

dilEGEWED

APR - 8 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

